No.
INTHE

~upreme <!tourt of tbe mntteb ~tates
FACEBOOK, INC., AND TWITTER, INC.,

Petitioners,
V.
SUPERIOR COURT OF SAN FRANCISCO COUNTY,
DERRICK D. HUNTER, AND LEE SULLIVAN,

Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 7th day of February, 2020, I caused three copies of the Petition for a Writ
of Certiorari to be served by third-party commercial carrier on the individuals identified
below, and caused an electronic version to be transmitted to the individuals identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.

Counsel for Respondents Derrick D. Hunter and Lee Sullivan:
Bicka Barlow
LAW OFFICE OF BICKA BARLOW

2358 Market St, Second Floor
San Francisco, CA 94114
(415) 553-4110
bickabarlow@sbcglobal.net
Jose Pericles Umali

LAW OFFICE OF JOSE PERICLES UMALI

507 Polk St, Suite 340
San Francisco, CA 94102
(415) 398-5750
umali-law@att.net

Susan B. Kaplan

LAW OFFICE OF SUSAN B. KAPLAN

214 Duboce Ave
San Francisco, CA 94103
(415) 271-5944
sbkapl@yahoo.com

Counsel for the City and County of San Francisco:
Nathan A. Quigley
OFFICE OF THE DISTRICT ATTORNEY

350 Rhode Island St, North Building,
Suite 400N
San Francisco, CA 94103
(628) 652-4000
nathan.quigley@sfgov.org

Pro Se Respondents:
Hon. Charles Crompton

Clerk of Court

SUPERIOR COURT OF SAN FRANCISCO
COUNTY

CALIFORNIA COURT OF APPEAL, FIRST
DISTRICT, DIVISION 5

350 McAllister St
San Francisco, CA 94102
(415) 865-7300

850 Bryant St, Department 19
San Francisco, CA 94103
(415) 551-4001

Served via Truefiling

Kellam Conover

2

